No. 19In the Supreme Court of the United States
TRUMPF, INC.,

Petitioner

v.
CSI WORLDWIDE, LLC,

Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
TODD M. SARANECKI
ADLER MURPHY &
MCQUILLEN LLP
20 S. Clark Street,
Suite 2500
Chicago, IL 60603
Tel: 312.422.5715
Fax: 312.345.9860
tsaranecki@
amm-law.com

CHRISTOPHER SCOTT
D’ANGELO

Counsel of Record

MONTGOMERY MCCRACKEN
WALKER & RHOADS LLP
1735 Market Street,
19th Floor
Philadelphia, PA 19103
(215) 772-7397
cdangelo@mmwr.com

Counsel for Petitioner
June 8, 2020

QUESTIONS PRESENTED FOR REVIEW
Whether
it
is
unconstitutional
and
impermissible for a court to usurp Congress’
authority by reducing the strict standing and
jurisdictional
requirements
for
involuntary
bankruptcy established by Congress in 11 U.S.C.
§ 303?
Whether a party who successfully forces a
debtor
into
involuntary
bankruptcy,
by
representing to the bankruptcy court that there is
no bona fide dispute as to that debtor’s liability,
upon which the bankruptcy court relies to enter its
adjudication, is precluded by judicial estoppel from
ignoring its representation and that adjudication to
bring a subsequent litigation in a different court
claiming the same liability against another entity?

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6,
Petitioner TRUMPF, Inc. discloses the following:
its parent companies are TRUMPF International
Beteiligungs-GmbH; TRUMPF GmbH + Co. KG,
and no publicly-held company owns more than 10%
of TRUMPF, Inc.’s stock.

RELATED CASES
United States Court of Appeals
for the Seventh Circuit
Docket No. 19-2189

CSI Worldwide, LLC v. TRUMPF, Inc.
Date of entry of Judgment: December 11, 2019
United States District Court
for the Northern District of Illinois
Docket No. 2018-cv-05900

CSI Worldwide, LLC v. TRUMPF, Inc.
Date of entry of judgment: May 28, 2019

i
TABLE OF CONTENTS
Page
Citations Of Decisions Below .................................. 1
Statement Of Jurisdiction ....................................... 1
Statutory Provisions Involved ................................. 1
Statement Of The Case ............................................ 2
I.

Introduction ...................................................... 2

II.

Factual Background ........................................ 3

III.

Proceedings Below ........................................... 4

IV.

Congress’ Strict Requirements
For Involuntary Bankruptcy ......................... 7

Reasons For Granting The Petition ...................... 12
I.

This Case Is Of Critical Importance
And Implicates A Novel Area Of Law ....... 12

II.

This Case Implicates The Integrity
Of The Judicial System ................................ 15

III.

This Case Is An Ideal Vehicle For
Deciding These Critically Important
Questions .................................................. 19

Conclusion .............................................................. 21

ii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, DATED
DECEMBER 11, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1a
APPENDIX B — OPINION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, FILED
MAY 28, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
CH ICAG O, I LLI NOI S 6 0 6 0 4 , FI LED
JANUARY 10, 2020 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23a
APPENDIX D — 1938 BANKRUPTCY ACT,
CHAPTER 575  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25a
A PPEN DI X E — E XCER P T S OF 19 78
BANKRUPTCY ACT .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28a
A PPENDIX F — EXCERPT OF PUBLIC
LAW 98-353  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 32a
APPENDIX G — EXCERPTS OF PUBLIC
LAW 109-8  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34a
APPENDIX H — EXCERPTS OF 11 U.S.C.A.
§ 303 INVOLUNTARY CASES  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 36a

iii
TABLE OF AUTHORITIES
Page(s)
Cases

In re All Media Props., Inc.,
5 B.R. 126 (S.D. Tex. 1980) ................................ 9

In re B.D. Int’l Discount Corp.,
701 F.2d 1071 (2d Cir. 1983) .............................. 9

In re Busick,
831 F.2d 745 (7th Cir. 1987) ............................ 15

In re Covey,
650 F.2d 877 (7th Cir. 1981) .............................. 9

Davis v. Wakelee,
156 U.S. 680 (1895)........................................... 16

Dep’t of Revenue v. Blixseth,
942 F.3d 1179 (9th Cir. 2019) .......................... 14

In re Green Hills Dev. Co.,
741 F.3d 651 (5th Cir. 2014) ............................ 17

Konstantinidis v. Chen,
626 F.2d 933 (D.C. Cir. 1980) ......................16, 17

Moses v. Howard Univ. Hosp.,
567 F.Supp.2d 62 (D.C. Cir. 2008) ................... 17

New Hampshire v. Maine,
532 U.S. 742 (2001)......................................16, 20

iv

Scarano v. Central R.R.,
203 F.2d 510 (3d Cir. 1953) .............................. 16

In re TPG Troy, LLC,
793 F.3d 228 (2d Cir. 2015) .............................. 14

In re Vortex Fish Sys., Inc.,
277 F.3d 1057 (9th Cir. 2002) .......................... 15

In re Wyo. Cty. Builders, LLC,
No. 12-21046, 2014 WL 1801679
(10th Cir. B.A.P. 2014) ..................................... 13
Statutes
11 U.S.C. § 303 ................................................ passim
28 U.S.C. 1254(1) ..................................................... 1
1938 Bankruptcy Act Chapter 525 .......................... 1
1978 Bankruptcy Act ............................................... 1
Bankruptcy Abuse Prevention and
Consumer Protection Act of 2005..................... 10
Bankruptcy Code Chapter 7 .................................... 4
Chandler Act of 1938 ............................................... 8
Public Law 98-353 .................................................... 1
Public Law 109-8 ...................................................... 2
Other Authorities
130 Cong. Rec. ........................................................ 10

v
151 Cong. Rec. E677-78 (daily ed. Apr.
18, 2005) ............................................................ 12
Supreme Court Rule 29.6 ........................................ 3
United States Constitution Article III ...............7, 14

1
CITATIONS OF DECISIONS BELOW
The opinion of the court of appeals (Pet.
App. 1a-5a) is reported at 944 F.3d 661. The
opinion of the district court (Pet. App. 6a-22a) is
not reported.
STATEMENT OF JURISDICTION
The judgment of the court of appeals was
entered on December 11, 2019 (Pet. App. 1a). A
petition for rehearing was denied on January 10,
2020 (Pet. App. 23a).
As per Order of this Court dated March 19,
2020, the deadline to file a petition for a writ of
certiorari due on or after that date was extended
from 90 days to 150 days from the date of the lower
court judgment, order denying discretionary
review, or order denying a timely petition for
rehearing (i.e. until June 8, 2020).
The jurisdiction of this Court is invoked
under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED
Chapter 525 of the 1938 Bankruptcy Act is
set out in Petition Appendix D (Pet. App. 25a-27a).
Excerpts of the 1978 Bankruptcy Act are set
out in Petition Appendix E (Pet. App. 28a-31a).
Excerpts of Public Law 98-353 are set out in
Petition Appendix F (Pet. App. 32a-33a).

2
Excerpts of Public Law 109-8 are set out in
Petition Appendix G (Pet. App. 34a-35a).
Excerpts of 11 U.S.C.A. § 303 Involuntary
Cases are set out in Petition Appendix H (Pet. App.
36a-38a).
STATEMENT OF THE CASE
I.

INTRODUCTION

This case concerns a seemingly mundane
business dispute that raises momentous and novel
questions about this nation’s bankruptcy laws and
the very integrity of the judicial process that must
be addressed by the Court. Company A brings
Company B into involuntary bankruptcy under 11
U.S.C. § 303(b)(1). To have standing to do so,
Company A swears under penalty of perjury that
the debt is not “the subject of a dispute as to
liability or amount.”
Indeed, involuntary
bankruptcy is as it sounds: a harsh but quick
remedy reserved for extraordinary circumstances,
wherein an entity that is indisputably liable for a
debt is forced into bankruptcy.
Company A
succeeds, but is unable to collect the contract price
in that proceeding. Consistent with Congressional
dictates and the principle of judicial estoppel, can it
now sue Company C, despite swearing to the
involuntary bankruptcy court that Company B is
the only debtor and invoking that court’s
jurisdiction?
The Northern District of Illinois answered in
the negative, estopping Company A from suing
Company C after it had sworn to another tribunal

3
that Company B is liable. The Seventh Circuit
reversed, analogizing this situation to a tort
plaintiff’s ability to separately sue joint tortfeasors.
As a result of the Seventh Circuit’s novel decision,
now a party that has a contract claim against one
person can avoid costly and time-consuming civil
litigation and instead swiftly bring that person into
involuntary bankruptcy, but when dissatisfied with
its collection efforts there, just sue another person
it then claims is also liable for the debt. This Court
should address whether such misuse of the
involuntary bankruptcy statute and judicial process
should be permitted.
II.

FACTUAL BACKGROUND

TRUMPF, Inc., a manufacturer of specialty
machinery, showcases its products at tradeshows.
It hired Lynch Exhibits to help build its exhibit at
the 2017 FABTECH trade show in Chicago, and
Lynch hired CSI Worldwide, LLC as a
subcontractor on this project for a contract price of
$529,830.09.
When Lynch did not pay CSI, CSI forced
Lynch into involuntary bankruptcy in the United
States Bankruptcy Court for the District of New
Jersey. In that proceeding and as required by
statute, CSI’s principal swore under penalty of
perjury that (a) CSI was a creditor holding a claim
against Lynch in the amount of $529,830.09 for
services rendered, and (b) that the debt in question
was neither “contingent as to liability or the subject
of a bona fide dispute as to liability or amount.” 11
U.S.C. § 303(b)(1).
Based upon CSI’s sworn

4
representations, on March 12, 2018, the
bankruptcy court granted CSI’s requested relief
and entered an order placing Lynch into liquidation
under Chapter 7 of the Bankruptcy Code. Lynch
later voluntarily declared bankruptcy, and in the
voluntary bankruptcy proceeding, CSI filed a sworn
Proof of Claim for the same amount.
Presumably dissatisfied with the potential
remedies in these bankruptcy proceedings, CSI
then sought to change its tune. Even though it
represented to the bankruptcy court that the debt
for which it placed Lynch into involuntary
bankruptcy was not contingent or disputed, and
even though the bankruptcy court accepted and
acted upon CSI’s sworn representations to grant
CSI the relief it sought, CSI filed a lawsuit
asserting that claim against another person:
TRUMPF, Inc.
III.

PROCEEDINGS BELOW

CSI filed a complaint against TRUMPF in
the Northern District of Illinois, claiming TRUMPF
owes it the $529,830.09 for services CSI provided to
Lynch for the FABTECH Show. TRUMPF moved
to dismiss the complaint, contending, inter alia,
that CSI should be judicially estopped from
asserting that it is now TRUMPF who is liable for
the $529,830.09. Specifically, TRUMPF showed
that CSI swore in an involuntary bankruptcy
petition filed in the bankruptcy court that another
entity—Lynch—actually owed that money, and
that no bona fide dispute or other contingencies
existed as to Lynch’s liability. Based on CSI’s

5
unequivocal representations to the bankruptcy
court and that court’s acting upon such
representations to grant CSI’s petition placing
Lynch into involuntary bankruptcy, TRUMPF
asserted that CSI should be estopped from seeking
the $529,830.09 from TRUMPF.
The district court agreed with TRUMPF and
granted its motion to dismiss, finding CSI’s sworn
representations in the bankruptcy proceeding
foreclosed its ability to argue that another party
was liable for the $529,830.09. Pet. App. 18a-22a.
In arriving at this decision, the district court
recognized the unique nature of involuntary
bankruptcy and explained that “bona fide disputes”
exist in involuntary bankruptcy when there is a
material issue of fact about whether the supposed
debtor actually owes the amount claimed on the
petition. Pet. App. 19a. By CSI attesting that
there was no bona fide dispute or other
contingencies as to Lynch’s liability, the district
court held that CSI was estopped from asserting in
this case that a different company—TRUMPF—
owes it the $529,830.09. Pet. App. 19a-20a. The
district court further held that CSI prevailed in the
bankruptcy proceeding because based on such
representations, it had persuaded the bankruptcy
court to enter an order placing Lynch into
involuntary bankruptcy, and it found CSI would
unduly benefit from being permitted to change its
position in this proceeding.
Pet. App. 21a.
Nowhere in the involuntary bankruptcy petition
was there any statement that there were any other
persons who were or could be liable for the debt on
which CSI was seeking to force Lynch into

6
involuntary bankruptcy.
CSI appealed to the
United States Court of Appeals for the Seventh
Circuit.
The court of appeals reversed the decision of
the district court, finding CSI was not judicially
estopped from asserting its claim against TRUMPF
because (1) CSI did not prevail in the bankruptcy
court in that it had not yet recovered the monies in
the bankruptcy court; and (2) CSI did not claim
that Lynch was solely responsible for payment of
the $529,830.09 when it filed its involuntary
bankruptcy petition. Pet. App. 3a-5a. In arriving
at this decision, the Seventh Circuit criticized the
district court’s conclusion that making a claim in
involuntary bankruptcy necessarily abandons all
claims against other potentially responsible
persons. Pet. App. 4a. The court then analogized
this scenario to cases involving guarantors or joint
tortfeasors and held it is common and proper to
seek and recover one debt from multiple persons.
Pet. App. 4a. Though the court of appeals held
that, generally, filing a claim in bankruptcy does
not foreclose claims against non-bankrupt obligors,
it did not explain how its reasoning extended to
involuntary bankruptcy petitions, which require a
party to certify under oath that no bona fide
dispute or other contingencies exist as to liability or
amount. Instead, it eschewed the unique nature of
involuntary bankruptcy and the strict standing and
jurisdictional requirements imposed by Congress,
and ultimately reversed and remanded the case,
holding that CSI’s claim against TRUMPF was not
contrary to its claim against Lynch. In so doing,
the court of appeals usurped Congress’ authority

7
and effectively lowered the bar imposed by
Congress, opening the door to unscrupulous
litigants seeking to gain strategic advantage by the
threat and improper use of involuntary bankruptcy,
without consequence. TRUMPF timely filed a
petition for rehearing en banc, which was denied on
January 10, 2020. Pet. App. 24a.
IV.

CONGRESS’ STRICT REQUIREMENTS
FOR INVOLUNTARY BANKRUPTCY

Involuntary bankruptcy is a severe remedy
with serious consequences.
Unlike voluntary
bankruptcies, which are commenced by the debtor,
involuntary bankruptcies occur when eligible
creditors force a putative debtor into bankruptcy,
often causing utter disruption and irreversible
damage to the debtor’s affairs and reputation.
Congress, recognizing the devastating effects
involuntary bankruptcy can have on a debtor,
purposefully limited the circumstances in which
creditors may force a debtor into such a proceeding.
Indeed, over the span of nearly seven decades,
Congress continually made it clear that involuntary
bankruptcy actions were proper only in situations
involving debts that were, as a practical matter,
non-contingent and undisputed.
Article III of the United States Constitution
vests Congress with the power to determine what
cases and controversies federal courts have
jurisdiction to review. Likewise, Congress also has
the authority to define the standing requirements
of Article III. Congress, by legislation, may either

8
expand standing to the full extent permitted by the
Constitution or limit standing to cases in which
certain prerequisites are met. These standing
limitations act as a gatekeeper, ensuring that a
plaintiff has a stake in the action and a factual
basis to hail another party into court.
Section 303 of the Bankruptcy Code, which
addresses the prerequisites for involuntary
bankruptcy actions, is just one example of a statute
that limits federal court jurisdiction and
enumerates certain prerequisites for standing.
Under that section, federal bankruptcy courts are
prohibited from adjudicating, and creditors are
proscribed from commencing, involuntary actions
that involve debts that are contingent as to liability
or the subject of a bona fide dispute as to liability or
amount. The purpose behind these limitations is
clear: because involuntary bankruptcy is a harsh
remedy with severe consequences, Congress did not
want creditors to be able to force an entity into
bankruptcy unless the debt at issue was
indisputably owed by the alleged debtor.
Congress’ initial foray into establishing strict
conditions and prerequisites for the filing of
involuntary bankruptcy petitions dates back to at
least the 1930s, when Congress passed the
Chandler Act of 1938 and prohibited creditors from
filing involuntary bankruptcy actions unless the
“provable claims” at issue were “fixed as to liability
and liquidated as to amount.” Pet. App. 26a.
Congress kept these limitations in place for nearly
forty years; then, in 1978, Congress removed the
Chandler Act’s “provable claims” requirement and

9
set forth a new definition of “claim” for purposes of
bankruptcy. Pet. App. 28a-29a. Under this new
definition, a “claim” included any contingent,
liquidated,
unliquidated,
fixed,
matured,
unmatured, disputed, undisputed, legal, equitable,
secured, or unsecured debt. Pet. App. 28a-29a.
Nevertheless, Congress still prohibited
creditors from bringing involuntary bankruptcy
actions where the claims at issue were contingent
as to liability. Pet. App. 29a. Given Congress’ past
recognition of involuntary bankruptcy as a severe
remedy, there was confusion in some courts as to
how to address disputed debts in the involuntary
bankruptcy context. See e.g., In re B.D. Int’l
Discount Corp., 701 F.2d 1071, 1076 (2d Cir. 1983)
(finding it difficult to believe “that Congress
intended that . . . a claim qualifies [for involuntary
bankruptcy] when the claim is subject to serious
dispute”); In re Covey, 650 F.2d 877, 881 (7th Cir.
1981) (finding fact that “creditor’s claim is disputed
does not disqualify a creditor from joining an
involuntary bankruptcy petition”); In re All Media
Props., Inc., 5 B.R. 126, 134 (S.D. Tex. 1980) (“[T]he
definition of the term ‘claim’ is far reaching and
clearly indicate[d] that Congress intended that
even holders of disputed claims should be able to
seek a determination of whether a debtor is
generally not paying its debts as they became
due.”).
In 1984, Congress sought to end the
confusion regarding disputed debts by passing an
amendment
that
prohibited
involuntary

10
bankruptcy petitions involving debts that were the
subject of a “bona fide dispute.” Pet. App. 33a. In
proposing this amendment, Senator Maxwell
Baucus explained the problem plaguing the courts:
The problem can be explained simply. Some
courts have interpreted section 303’s
language on a debtor’s general failure to pay
debts as allowing the filing of involuntary
petitions and the granting of involuntary
relief even when the debtor’s reason for not
paying is a legitimate and good-faith dispute
over his or her liability. This interpretation
allows creditors to use the Bankruptcy Code
as a club against debtors who have bona fide
questions about their liability, but who
would rather pay up than suffer the stigma
of involuntary bankruptcy proceedings.
130 Cong. Rec. S.7,618 (daily ed. June 19, 1984).
Senator Baucus believed that adding the “bona fide
dispute” language was “necessary to protect the
rights of debtors and to prevent misuse of the
bankruptcy system as a tool of coercion.” Id. The
amendment passed without objection. Id.
In 2005, Congress added one final
requirement to involuntary bankruptcy actions:
The Bankruptcy Abuse Prevention and Consumer
Protection Act of 2005 required that creditors hold
claims “not contingent as to liability or the subject
of a bona fide dispute as to liability or amount.”
Pet. App. 34a-35a (emphasis added). When the
House of Representatives voted on the amendment,

11
Representative Edward Royce explained “Congress’
long-standing
intent
that
an
involuntary
bankruptcy action should not be predicated on
disputed claims,” stating:
[O]pportunistic litigants seeking to gain
advantage in contract disputes may
improperly employ the leverage of the
bankruptcy court. . . Put simply, the
bankruptcy courts in this nation should now
uniformly hold that any claim that is subject
to a dispute or litigation, or if it is contested,
whether as to the amount of the claim, or as
to liability for the claim, that claim cannot be
used
to
commence
an
involuntary
bankruptcy case. This is the bright line that
Congress intended to create in 1984 because
involuntary bankruptcy carries with it, not
only a responsibility, but the burden on
behalf of petitioning creditors to be accurate
and certain that their provable claims are
qualified by being without dispute as to
either liability or amount before commencing
an involuntary bankruptcy case. The
consequence of bad faith or even sloppy work
here is more disastrous than in gardenvariety litigation or through the voluntary
use of the bankruptcy laws. . . . [I]t is the
intent of Congress, as expressed through the
unique retroactive application of Section
1234, to require the dismissal of any
involuntary petition brought by using
disputed claims, including any bankruptcy

12
cases that are pending as a result of the
misapplication of Section 303.
151 Cong. Rec. E677-78 (daily ed. Apr. 18, 2005).
Thus, since 2005, to force a debtor into
involuntary bankruptcy, a creditor must swear,
under penalty of perjury, that the debts are not
“the subject of a bona fide dispute as to liability or
amount.” See Pet. App. 36a-37a.
REASONS FOR GRANTING THE PETITION
I.
THIS CASE IS OF CRITICAL
IMPORTANCE AND IMPLICATES A
NOVEL AREA OF LAW
This case presents critically important
questions that will have an immediate and serious
impact on involuntary bankruptcy actions across
the nation: whether a creditor can make sworn
representations to one court to force a debtor into
involuntary bankruptcy and then renege on those
representations when the involuntary bankruptcy
proceedings ultimately prove unsatisfactory. The
Seventh Circuit answers these questions in the
affirmative, thus allowing a creditor to swear,
under oath, that the debt at issue is not the subject
of a contingency as to liability or bona fide dispute
as to liability or amount, but later pursue another
for the same debt it had represented to be
undisputed. Such a holding defies reason and
eschews the limitations of Section 303 that were
implemented by Congress to avoid incompatible

13
manipulation such as this. So long as the questions
presented remain unanswered, creditors will be
permitted to mislead the courts and misuse the
bankruptcy system. Review by this Court is thus
urgently needed and warranted.
Indeed, grant of certiorari here would allow
this Court to clarify the intersection of judicial
estoppel and involuntary bankruptcy—something
that has not been done before. The Seventh Circuit
incorrectly believed that this is “not a novel
problem,” as it appears that only one other court
has addressed this precise issue, and that court
estopped a party from doing precisely what CSI did
in this case: adding an alleged debtor after forcing
another entity into involuntary bankruptcy for the
same alleged debt. In re Wyo. Cty. Builders, LLC,
No. 12-21046, 2014 WL 1801679, *4 (10th Cir.
B.A.P. 2014) (“Appellant took an inconsistent
position by first positing that WCB was the alleged
debtor in the involuntary petition signed by her,
and now argues Van Vleet is the alleged debtor.”).
The Seventh Circuit’s decision splits from In re
Wyo. Cty. Builders, LLC in a dangerous way, and
confusion among the lower courts is bound to arise.
But involuntary bankruptcy is too harsh a remedy
to be the subject of a circuit split; debtors and
creditors alike need clarity, and this case is the
ideal vehicle for providing it.
If the Seventh Circuit’s decision stands, it
will allow a creditor to attempt to recover from two
separate parties—in two separate proceedings—
after it forced one of those parties into involuntary

14
bankruptcy by swearing that the debt at issue was
not the subject of a bona fide dispute. This decision
violates Article III of the Constitution, as Congress
explicitly limited the situations in which a creditor
has standing to bring a putative debtor into
involuntary bankruptcy, and will have a
monumental effect on the involuntary bankruptcy
landscape from here on out; creditors will now be
able to force an entity into bankruptcy even where
the standing requirements of Section 303 are not
met.
See 11 U.S.C. § 303(b)(1) (permitting
involuntary bankruptcy where debt “is not
contingent as to liability or the subject of a bona
fide dispute as to liability or amount”); see also
Dep’t of Revenue v. Blixseth, 942 F.3d 1179, 1184
(9th Cir. 2019) (noting requirements of Section 303
“aim to prevent creditors from using the threat of
an involuntary petition to bully an alleged debtor
into settling a speculative or validly disputed debt”)
(citation omitted). This is unconstitutional and not
what Congress intended or directed when it
amended the Bankruptcy Code in 2005.
Thus, this case presents a novel question of
exceptional importance – i.e., can a party cause a
debtor to be placed into involuntary bankruptcy by
representing there is “no bona fide dispute as to
liability,” only to later claim in a separate litigation
that the same debt was owed by another?
Petitioner submits the answer is no; because there
are multiple alleged debtors for the same debt,
there must have been a bona fide dispute as to
liability. See In re TPG Troy, LLC, 793 F.3d 228,
234 (2d Cir. 2015) (“‘[P]ending litigation over a

15
claim strongly suggests’ the existence of a bona fide
dispute, even if it does not suffice to firmly
establish that existence.”) (citation omitted); In re
Vortex Fish Sys., Inc., 277 F.3d 1057, 1064 (9th Cir.
2002) (“A bankruptcy court is not asked to evaluate
the potential outcome of a dispute, but merely to
determine whether there are facts that give rise to
a legitimate disagreement over whether money is
owed, or, in certain cases, how much.”); In re
Busick, 831 F.2d 745, 746 (7th Cir. 1987) (holding
that when there is a question as to who owes a
debt, involuntary bankruptcy is improper because
it creates a bona fide dispute as to liability).
The Seventh Circuit’s decision here
dramatically lowers the barriers to involuntary
bankruptcy and undermines the purpose of Section
303: to prevent creditors from playing fast and
loose with the facts and improperly forcing an
entity into involuntary bankruptcy. The Court
should grant certiorari.
II.
THIS CASE IMPLICATES THE
INTEGRITY OF THE JUDICIAL SYSTEM
Judicial estoppel is designed to prevent
parties from misleading the courts with
inconsistent representations in different judicial
proceedings.
As this Court has recognized,
“[w]here a party assumes a certain position in a
legal proceeding, and succeeds in maintaining that
position, he may not thereafter, simply because his
interests have changed, assume a contrary position,
especially if it be to the prejudice of the party who

16
has acquiesced in the position formerly taken by
him.” New Hampshire v. Maine, 532 U.S. 742, 749
(2001) (quoting Davis v. Wakelee, 156 U.S. 680, 689
(1895)). The Court has observed that the circuit
courts have uniformly recognized that the purpose
of the doctrine “is to protect the integrity of the
judicial process by prohibiting parties from
deliberately changing positions according to the
exigencies of the moment.” Id. at 749–50 (internal
quotations and citations omitted).
With the goal of preserving judicial integrity,
circuit courts often consider three factors in
determining whether a party should be judicially
estopped: (1) a party’s later position is clearly
inconsistent with its earlier position; (2) the party’s
former position has been adopted in some way by a
court in earlier proceedings; (3) the party asserting
the two positions derives an unfair advantage. Id.
at 749–50.
These factors are not “inflexible
prerequisites or an exhaustive formula for
determining the applicability of judicial estoppel”
but rather are “guideposts,” and “additional
considerations
may
inform
the
doctrine’s
application in specific factual contexts.” Id. at 751.
Reneging on prior sworn statements can
present a unique threat to the court system.
“[E]ven when the prior [inconsistent] statements
were not made under oath, the doctrine may be
invoked to prevent a party from playing ‘fast and
loose with the courts.’’ Konstantinidis v. Chen, 626
F.2d 933, 937 (D.C. Cir. 1980) (quoting Scarano v.
Central R.R., 203 F.2d 510, 513 (3d Cir. 1953)).

17
But, “[t]o the extent that prior sworn statements
are involved, the doctrine upholds the public policy
which exalts the sanctity of the oath. The object is
to safeguard the administration of justice by
placing a restraint upon the tendency to reckless
and false swearing and thereby preserve the public
confidence in the purity and efficiency of judicial
proceedings.” Id. (quotation omitted).
The doctrine’s application in ensuring the
integrity of bankruptcy courts by enforcing the
accuracy and transparency of party representations
and filings is well established. See, e.g., Moses v.
Howard Univ. Hosp., 567 F.Supp.2d 62, 67 (D.C.
Cir. 2008) (“Many courts have applied the doctrine
of judicial estoppel to bar plaintiffs from pursuing
claims . . . because those plaintiffs failed to disclose
the existence of their claims to bankruptcy courts
in prior or parallel [voluntary] bankruptcy
proceedings.”)(listing cases). See also In re Green
Hills Dev. Co., 741 F.3d 651, 655 (5th Cir. 2014)
(citing 11 U.S.C. § 303(b)) (“A claimholder does not
have standing to file a petition under § 303(b) if its
claim is ‘the subject of a bona fide dispute as to
liability or amount.’”).
This Court must answer whether it is an
affront to judicial integrity to bring a party into
involuntary bankruptcy based on the sworn
representation that there is no dispute as to a
(disputed) debt, only to sue another potential
debtor in federal district court. As of now, due to
the Seventh Circuit’s decision in this case, a
creditor can do just that. This result allows for

18
manipulation of, and undermining the integrity of,
the judicial system, as a party can effectively cross
its fingers in an involuntary bankruptcy
proceeding, knowing it can pursue its claim should
it fail to collect in bankruptcy. Misrepresentation
of this sort would be particularly pernicious in an
involuntary bankruptcy petition, which, unlike a
traditional civil complaint, requires certain factual
representations—namely
the
absence
of
contingencies or a bona fide dispute—for a party
just to get through the courthouse doors, so to
speak.
Furthermore, it would not take the most
cunning creditor pursuing a disputed debt easily to
decide whether to pursue costly traditional
litigation, or bring one of several potential debtors
into involuntary bankruptcy for the full amount of
the debt. The former strategy requires drafting
pleadings, participating in discovery, and going to
trial, among the other hallmarks of litigation—all
at considerable time and legal expense. The latter
requires merely filling out a single form and
presenting it to a bankruptcy court. And, both
avenues can achieve the same result. The Seventh
Circuit’s decision here has opened the door to
highly questionable litigation tactics—the exact
behavior that the judicial estoppel doctrine is
designed to prevent.
This Court must decide
whether that door should remain open, or whether
such behavior is legally intolerable and repugnant
to the integrity of the judicial system

19
III.

THIS CASE IS AN IDEAL VEHICLE FOR
DECIDING THESE CRITICALLY
IMPORTANT QUESTIONS

The questions presented are critically
important, and for three reasons this case is the
right vehicle to decide them.
First, factually and procedurally, this case is
straightforward.
As outlined above, CSI sued
TRUMPF in the Northern District of Illinois,
seeking payment for a debt that CSI previously
asserted under oath was indisputably owed by
Lynch. TRUMPF moved to dismiss, contending
CSI was judicially estopped from maintaining such
a conflicting position. The district court granted
the motion to dismiss, and the court of appeals
reversed. In arriving at its decision, the district
court noted that Lynch’s voluntary bankruptcy
action, filed March 7, 2018, remains ongoing in the
United States Bankruptcy Court for the District of
New Jersey. That proceeding reinforces the need
for this Court’s review because it shows, firsthand,
that CSI is currently trying to collect the same debt
from two parties even though it swore under oath
that only one entity—Lynch—owed the money
without dispute. Permitting both cases to move
forward would implicitly authorize this duplicitous
behavior and allow creditors to renege on sworn
representations made to the bankruptcy courts.
This is not what Congress envisioned when it
implemented Section 303.

20
Next, though the Seventh Circuit analyzed
the multi-factor judicial estoppel test of New
Hampshire v. Maine, the crux of its opinion
concerned the inconsistency factor, and granting
certiorari on this specific issue would be outcomedeterminative here.
Indeed, if this Court finds
that Section 303 of the Bankruptcy Code precludes
a party from seeking money from one entity when
it already swore, under penalty of perjury, (1) that
a different entity owes the debt; and (2) that the
debt was not the subject of a “bona fide dispute,”
this case will end. The district court will not need
to reevaluate whether CSI was successful in the
bankruptcy proceeding or decide whether CSI
gained an unfair advantage over Lynch and
TRUMPF because inconsistent positions, alone,
would now be enough to invoke judicial estoppel in
the involuntary bankruptcy context.
Finally, the questions presented will not
benefit from further assessment in the lower
courts. Congress’ intent regarding the limits of
involuntary bankruptcy under Section 303 was
clear: Congress did not want creditors to misuse the
bankruptcy system or coerce debtors into
involuntary bankruptcy over debts that were
legitimately the subject of a bona fide dispute.
Permitting the Seventh Circuit’s opinion to stand
will contravene this purpose and allow debtors to
essentially get another bite of the apple when
involuntary bankruptcy proves unfruitful. This
will broaden the scope of Section 303 in a
dangerous way, authorize manipulation of the
judicial system, and cause the whole involuntary

21
bankruptcy system to tumble down.
should not delay intervening.

This Court

CONCLUSION
The petition for a writ of certiorari should
be granted.
June 8, 2020

Respectfully submitted,
CHRISTOPHER SCOTT D’ANGELO

Counsel of Record

MONTGOMERY MCCRACKEN
WALKER & RHOADS LLP
1735 Market Street, 19th Floor
Philadelphia, PA 19103
(215) 772-7397
cdangelo@mmwr.com
TODD M. SARANECKI
ADLER MURPHY & MCQUILLEN LLP
20 S. Clark Street, Suite 2500
Chicago, IL 60603
Tel: 312.422.5715
Fax: 312.345.9860
tsaranecki@amm-law.com

Counsel for Petitioner, TRUMPF, Inc.

APPENDIX

1a
A
APPENDIX Appendix
A — OPINION
OF THE
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, DATED DECEMBER 11, 2019
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-2189
CSI WORLDWIDE, LLC,
Plaintiff-Appellant,
v.
TRUMPF INC.,
Defendant-Appellee.
December 9, 2019, Argued;
December 11, 2019, Decided
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division. No. 2018
CV 05900 — Charles R. Norgle, Judge.
Before EASTERBROOK, ROVNER, and SCUDDER,
Circuit Judges.
Easterbrook, Circuit Judge. TRUMPF Inc., the U.S.
subsidiary of an international business, makes specialty
tools such as precision laser cutters. Trade shows are
among its selling venues, and it hired Lynch Exhibits

2a
Appendix A
to handle its appearance at the 2017 PABTECH show in
Chicago. Lynch subcontracted with CSI Worldwide to
provide some of the necessary services.
CSI contends that it told TRUMPF that it was
unsure of Lynch’s reliability and would do the work
only if TRUMPF paid it directly or guaranteed Lynch’s
payment. According to CSI, TRUMPF assented—though
it did not sign any undertaking to that effect. CSI did
the work and billed Lynch, which did not pay. CSI filed
an involuntary bankruptcy petition against Lynch, which
soon filed a voluntary bankruptcy petition. CSI claimed
approximately $ 530,000 as a creditor. It also filed this
suit against TRUMPF under the diversity jurisdiction,
seeking $ 530,000 on theories including unjust enrichment
and promissory estoppel. The district court dismissed
the suit on the pleadings, ruling that, by making a claim
in Lynch’s bankruptcy, CSI necessarily represented
that Lynch is the sole debtor. The district court called its
approach judicial estoppel.
The Supreme Court describes judicial estoppel this
way:
“Where a party assumes a certain position in a
legal proceeding, and succeeds in maintaining
that position, he may not thereafter, simply
because his interests have changed, assume
a contrary position, especially if it be to the
prejudice of the party who has acquiesced in
the position formerly taken by him.” Davis
v. Wakelee, 156 U.S. 680, 689, 15 S. Ct. 555,

3a
Appendix A
39 L. Ed. 578 (1895). This rule, known as
judicial estoppel, “generally prevents a party
from prevailing in one phase of a case on an
argument and then relying on a contradictory
argument to prevail in another phase.” Pegram
v. Herdrich, 530 U.S. 211, 227, n.8, 120 S. Ct.
2143, 147 L. Ed. 2d 164 (2000); see 18 Moore’s
Federal Practice §134.30 (3d ed. 2000) (“The
doctrine of judicial estoppel prevents a party
from asserting a claim in a legal proceeding
that is inconsistent with a claim taken by that
party in a previous proceeding”); 18 C. Wright,
A. Miller, & E. Cooper, Federal Practice and
Procedure §4477 (1981) (“absent any good
explanation, a party should not be allowed to
gain an advantage by litigation on one theory,
and then seek an inconsistent advantage by
pursuing an incompatible theory”).
New Hampshire v. Maine, 532 U.S. 742, 749, 121 S. Ct.
1808, 149 L. Ed. 2d 968 (2001) (cleaned up). See also id.
at 750-51. The Court’s description shows that judicial
estoppel does not block CSI’s suit, for CSI has not prevailed
by collecting the debt from Lynch’s estate in bankruptcy.
The district court believed that success in the earlier suit
does not matter to the doctrine of judicial estoppel, but
the Supreme Court views the matter differently, as do we.
See, e.g., Astor Chauffeured Limousine Co. v. Runnfeldt
Inv. Corp., 910 F.2d 1540, 1548-49 (7th Cir. 1990). Because
CSI has not prevailed in the bankruptcy court, judicial
estoppel cannot block its claim against TRUMPF.

4a
Appendix A
Nor is CSI’s claim against TRUMPF “contrary” to
its claim against Lynch. CSI has not asserted, in either
the involuntary or the voluntary bankruptcy case, that
Lynch is solely responsible for payment. It has not tried
to recover twice on one debt. The district court believed
that making a claim in bankruptcy necessarily abandons
all claims against other potentially responsible persons,
but it did not explain why or cite authority. As far as we
are aware, there is no such authority to be found. Seeking
to recover one debt from multiple persons is common and
proper.
Think of joint tortfeasors, one of whom is bankrupt.
The victim may seek to recover from both, and the fact
that one is bankrupt does not force the victim to elect
which it will pursue. Suppose the debtor in bankruptcy has
insurance; seeking to prove the claim against the asserted
tortfeasor in bankruptcy does not block recovery from a
solvent insurer. Or think of a commercial transaction in
which a firm borrows money and the debt is guaranteed
by one of the firm’s investors. Making a claim against
the borrower in bankruptcy does not cut off recourse
against the guarantor. Instead of a guarantor, the debt
may have the support of a bond. Many a subcontractor
insists that the general contractor or the project ‘s owner
put up a bond to ensure that the general contractor pays.
If the general contractor goes bankrupt, the unpaid
subcontractor may file a claim without abandoning its
recourse against the bond. Indeed, bonds may require the
subcontractor to seek whatever can be had in bankruptcy.
If the district court were right, however, all of these claims
against third parties would be blocked by the doctrine of
judicial estoppel.

5a
Appendix A
This is not a novel problem, and the Bankruptcy Code
itself provides the answer. Filing a claim in bankruptcy
does not foreclose claims against non-bankrupt obligors.
Even a discharge in bankruptcy does not do that. 11
U.S.C. §524(e). Many decisions recognize that a claim in
bankruptcy does not block recovery from third parties
such as guarantors or jointly responsible persons. See,
e.g., In re Shondel, 950 F.2d 1301, 1306 (7th Cir. 1991). See
also Union Carbide Corp. v. Newboles, 686 F.2d 593, 595
(7th Cir. 1982) (same outcome under §16 of the Bankruptcy
Act of 1898, which preceded the Bankruptcy Code of 1978).
CSI may or may not have a good claim on the merits
and TRUMPF may or may not have a defense that it has
paid what it owes. These matters must be resolved on
remand.
Reversed and Remanded

6a
Appendix
B AND ORDER
Appendix B —
OPINION
of the UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION, FILED MAY 28, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
CSI WORLDWIDE, LLC,
Plaintiff,
v.
TRUMPF, INC.,
Defendant.
Case No. 2018 CV 05900
Hon. Charles R. Norgle
OPINION AND ORDER
Plaintiff CSI Worldwide, LLC (“Plaintiff”) filed
the instant action against Defendant TRUMPF, Inc.
(“Defendant”) on August 28, 2018 claiming that Defendant
owes $529,830.09 for services provided by Plaintiff at a
trade show in Chicago in 2017. Plaintiff, pleading in the
alternative, brings four claims—promissory estoppel,
payment over notice of assignment, unjust enrichment, and
breach of contract—in this diversity action. Defendant’s
motion to dismiss, which alternatively pleads that this case
should be dismissed pursuant to Fed. R. Civ. P. 12(b)(2) or
12(b)(6), is granted for the following reasons.

7a
Appendix B
I. BACKGROUND
Defendant, a Connecticut corporation with its
principal place of business in Farmington, Connecticut,
manufactures machinery. Plaintiff is a Delaware limited
liability company with two members, who are citizens of
the states of Florida and South Carolina respectively, with
its corporate headquarters in Glen Mills, Pennsylvania.
Plaintiff provides labor for installing and dismantling
exhibits being displayed at trade shows. Defendant exhibits
its products at such trade shows. Broadly, Defendant
makes three arguments in its motion to dismiss: first, that
personal jurisdiction is lacking in this Court; second, that
Plaintiff is taking a position that contradicts a position it
advanced (and which was adopted) in bankruptcy court
and thus Plaintiff should be judicially estopped from
putting forth its “new,” contradictory theory in this Court;
and third, that there are substantive deficiencies in the
way that Plaintiff has pleaded its claims. The Court need
only address the first and second arguments to resolve
this matter in favor of Defendant.
The following facts are before the Court.1 On June 14,
2017, Defendant met with Plaintiff and a third party not
1. Unless otherwise noted, all facts in the ensuing background
section are taken directly from Plaintiff’s complaint and are
assumed to be true for purposes of this motion. See Killingsworth
v. HSBC Bank, N.A., 507 F.2d 614, 618 (7th Cir. 2007). This section
also draws from an affidavit Plaintiff has submitted to provide
factual information relevant to the issue of personal jurisdiction,
along with a number of documents from the U.S. Bankruptcy Court
for the District of New Jersey, of which the Court takes judicial
notice (as discussed further herein).

8a
Appendix B
named as a defendant in this suit, Lynch Exhibits, Inc.
(“Lynch”), to discuss Defendant’s desire to participate
in the FABTECH 2017 trade show (“trade show”) at
McCormick Place in Chicago, Illinois, from November
6-9, 2017. Compl. ¶¶ 7-8. At the meeting, individuals
from the three companies discussed Lynch designing,
engineering, and building Defendant›s exhibit for the
trade show, and Plaintiff providing the onsite labor to
build and subsequently dismantle Defendant’s exhibit.
Id. In July 2017, Lynch informed Plaintiff that Defendant
had hired Lynch to design and create the exhibit. Id. ¶ 9.
Lynch further informed Plaintiff that Defendant wanted
Plaintiff to perform the labor to install and dismantle the
exhibit. Id. Plaintiff then informed Lynch that Plaintiff
would provide labor for the trade show only if it could bill
Defendant directly for the work, as Plaintiff believed that
Lynch had a history of poor credit. Id. ¶ 10. In response,
in an August 28, 2017 email, a Lynch employee stated to
Plaintiff that it could directly bill to Defendant—though
no Defendant employee was copied on the correspondence.
Id. ¶ 10.
Plaintiff further alleges that in September 2017, at
a number of meetings in which Defendant’s employees
were present, one of Plaintiff’s employees “reiterated
at meetings . . . that CSI [Plaintiff] was billing Trumpf
[Defendant] directly for CSI’s labor.” Id. ¶ 12. According
to the complaint, “[n]o Trumpf representative ever took
issue with those representations.” Id.
Over the next several months, Plaintiff provided the
labor in Chicago for the November 6-9, 2017 trade show.

9a
Appendix B
Id. ¶ 13. Throughout that process, TRUMPF employeesincluding some executives-were in Chicago for various
meetings throughout the lead-up to the trade show. Dkt.
24-1, Declaration of William Joyce (“Joyce Declaration”).
According to Plaintiffs Vice President of Marketing
William Joyce, who managed Plaintiffs employees who
were installing and dismantling Defendant’s exhibit,
executives and representatives were present in Illinois
for strategic planning and implementation meetings in
the months and weeks leading up to the trade show. Id.
¶¶ 12-14. According to the Joyce Declaration, Joyce met
with one of Defendant’s representatives twenty times and
another approximately fifteen times, all in Chicago. Id.
¶ 15. Moreover, Joyce attests that during the trade show,
at least six of Defendant’s executives and fifty employees
were present in Chicago. Id. ¶ 16.
Sometime following the trade show, “Lynch reviewed
[Plaintiff’s] . . . bills to confirm their accuracy[.]” Compl.
¶ 15. On December 6, 2017, Plaintiff submitted its invoices
to Defendant in an email chain that contained the August
28, 2017 Lynch statement that Plaintiff could invoice
Defendant directly. Id. ¶¶ 16-17. Roughly two weeks later,
Plaintiff again sent the invoices to Defendant. Id. ¶ 18.
Finally, on or about January 18, 2018, a Plaintiff employee
called Defendant and “reminded” Defendant that it was
supposed to pay Plaintiff directly. Id. ¶ 19. A Defendant
employee then represented to Plaintiff that Defendant was
aware of Plaintiffs expectation and that it was “working
on a solution to provide CSI with compensation for the
labor it provided Trumpf at the Fabtech trade show.” Id.
In all, the total amount Plaintiff invoiced Defendant was
$529,830.09. Id. ¶ 14.

10a
Appendix B
On February 15, 2018, Plaintiff, along with two
other creditors of Lynch, petitioned the United States
Bankruptcy Court for the District of New Jersey to
place Lynch into involuntary Chapter 7 bankruptcy.
Dkt. 13-2, Involuntary Petition Against a Non-Individual
(“Involuntary Bankruptcy Petition”). The Bankruptcy
Court, on consideration of that February 15 petition,
entered an order placing Lynch into Chapter 7 Bankruptcy
on March 12, 2018. Dkt. 13-4, March 12, 2018 U.S.
Bankruptcy Court Order for Relief (“Involuntary
Bankruptcy Order”). Prior to that March 12 Order, on
March 7, 2018, Lynch filed a voluntary bankruptcy petition.
Dkt. 13-3, Voluntary Bankruptcy Petition (“Voluntary
Bankruptcy Petition”). On May 9, 2018, the involuntary
bankruptcy was dismissed “for Debtor’s [Lynch] Failure
to File Documents in an Involuntary Case” and because,
according to Plaintiff’s responsive briefing on this motion,
“the Court believed that the matters asserted in the
Involuntary Bankruptcy were subsumed into Voluntary
Bankruptcy.” Dkt. 24-7, May 9, 2018 Order Dismissing
Case on Court’s Order to Show Cause (“Involuntary
Bankruptcy Dismissal”). The voluntary bankruptcy
proceedings remain on going.
As a final matter with respect to the bankruptcy
proceedings, the Court notes that Plaintiff, in its
Involuntary Bankruptcy Petition (which was signed by
both an attorney and a principal for Plaintiff), claimed
that Lynch owed it $529,830.09. In this case, Plaintiff
demands $529,830.09 from Defendant.

11a
Appendix B
II. DISCUSSION
A. Standard of Review
In considering a motion to dismiss, the Court accepts
“all well-pleaded allegations of the complaint as true and
view[s] them in the light most favorable to the plaintiff.”
Indep. Trust Corp. v. Stewart Info. Servs. Corp., 665 F.3d
930, 934 (7th Cir. 2012). To survive a motion to dismiss
under Rule 12(b)(6), a plaintiffs complaint “must actually
suggest that the plaintiff has a right to relief, by providing
allegations that raise a right to relief above the speculative
level.” Id. at 934 (internal quotation marks and citation
omitted); see also Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007) (stating that a complaint must allege “enough
facts to state a claim to relief that is plausible on its
face”). Determining plausibility is a “context-specific task
that requires the reviewing court to draw on its judicial
experience and common sense.” Ashcroft v. Iqbal, 556 U.S.
662, 679 (2009) (citation omitted).
B. 	Facts Outside the Pleadings
As an initial matter, both Plaintiff and Defendant have
attached various exhibits to the relevant pleadings—both
to the complaint and to the briefs submitted for the present
motion. Before deciding the motion itself, the Court first
considers which of these exhibits can be properly drawn
from. The presented materials take two forms—those
relevant to the personal jurisdiction issue and those
relevant to the 12(b)(6) judicial estoppel issue.

12a
Appendix B
First, with respect to personal jurisdiction, the Court
may accept and consider relevant affidavits in making a
determination as to the existence of personal jurisdiction.
Purdue Research Found. v. Sanofi-Synthelabo, S.A., 338
F.3d 773, 782 (7th Cir. 2003). Here, the Joyce Declaration is
thus properly before the Court and will be considered and
discussed below as pertinent to the Court’s determination
on personal jurisdiction.
Second, and subject to a more nuanced analysis, the
parties additionally provide a number of exhibits bearing
on Defendant’s argument that Plaintiff should be judicially
estopped from claiming that Defendant is liable for the
$529,830.09. As relevant to this argument, the Court
considers the Involuntary Bankruptcy Petition, the
Involuntary Bankruptcy Order, the Voluntary Bankruptcy
Petition and the Involuntary Bankruptcy Dismissal.
Pursuant to Fed. R. Civ. P. 201(b), the “court may
judicially notice a fact that is not subject to reasonable
dispute because it: (1) is generally known within the trial
court’s territorial jurisdiction; or (2) can be accurately
and readily determined from sources whose accuracy
cannot reasonably be questioned.” Fed. R. Evid. 201(b).
The Seventh Circuit in Gen. Elec. Capital Corp. v. Lease
Resolution Corp. cautioned:
Judicial notice is premised on the concept
that certain facts or propositions exist which
a court may accept as true without requiring
additional proof from the opposing parties.
It is an adjudicative device that substitutes

13a
Appendix B
the acceptance of a universal truth for the
conventional method of introducing evidence. . . .
Judicial notice, therefore, merits the traditional
caution it is given, and courts should strictly
adhere to the criteria established by the Federal
Rules of Evidence before taking judicial notice
of pertinent facts.
128 F.3d 1074, 1081 (7th Cir. 1997). The Involuntary
Bankruptcy Order and the Involuntary Bankruptcy
Dismissal are the quintessential types of documents
that may be judicially noticed, as these are public judicial
determinations not subject to dispute. In the Matter of
Lisse, 905 F.3d 495, 497 (7th Cir. 2018). The Court thus
takes judicial notice of these documents.
With respect to the Involuntary Bankruptcy Petition
filed by Plaintiff in the New Jersey Bankruptcy Court
on February 15, 2018, the Court takes judicial notice of
this petition not for the purpose of accepting the truth
of the facts contained therein, but rather as evidence
of the position that Plaintiff has previously taken in
another court. While it would be improper for this Court
to consider the petition as evidence of the truth of the
arguments asserted within it (for example, to take it to
mean that it is beyond dispute that Lynch actually owes
Plaintiff the $529,830.09), it can be considered as evidence
of Plaintiff’s previous position. See Id. at 498. Likewise,
the Court will consider the Voluntary Bankruptcy Petition
not for the truth of the underlying matters asserted within
it, but rather for the adjudicative fact that the voluntary
petition was eventually filed.

14a
Appendix B
C. 	Personal Jurisdiction
Defendant first argues this case should be dismiss
for lack of personal jurisdiction. Once a defendant has
challenged a court’s exercise of personal jurisdiction,
the plaintiff has the burden of demonstrating that the
court’s exercise of personal jurisdiction over a defendant
is proper. See RAR, Inc. v. Turner Diesel, Ltd., 107 F.3d
1272, 1276 (7th Cir. 1997). It is well established law that
“[a] federal court’s exercise of personal jurisdiction over a
non-resident defendant is proper ‘only if a court of the state
in which it sits would have such jurisdiction.”’ Edelson v.
Ch’ien, 352 F. Supp. 2d 861,865-66 (N.D. Ill. 2005) (quoting
Klump v. Duffus, 71 F.3d 1368, 1371 (7th Cir. 1995));
see also Deluxe Ice Cream Co. v. R.C.H. Tool Corp., 726
F.2d 1209, 1212 (7th Cir. 1984). This court therefore has
jurisdiction over this matter “’only if [an Illinois state
court] would have such jurisdiction.”’ Edelson, 352 F. Supp.
2d at 866 (quoting Klump, 71 F.3d at 1371).
The inquiry into whether this court has jurisdiction
over the Defendant must therefore begin with “an
application of the statutory law of [Illinois].” Jennings v.
AC Hydraulic A/S, 383 F.3d 546, 548 (7th Cir. 2004). After
considering Illinois’s statutory framework concerning
jurisdiction over non-resident defendants, the court must
then consider whether its exercise of jurisdiction would
“comport[] with due process.” Id. at 549. The Seventh
Circuit has determined that “there is no operative
difference between the limits imposed by the Illinois
Constitution and the federal limitations on personal
jurisdiction.” Hyatt Int’l Corp. v. Coco, 302 F.3d 707,

15a
Appendix B
715 (7th Cir. 2002). One due process inquiry is therefore
sufficient. Edelson, 352 F. Supp. 2d at 866.
Under the Illinois Long-Arm Statute, an Illinois court
may exercise personal jurisdiction over a non-resident
defendant who engages in “[t]he making or performance
of any contract or promise substantially connected with
this State.” 735 Ill. Comp. Stat. 5/2-209(a)(7).
A court’s inquiry into whether its exercise of
jurisdiction over a nonresident defendant would be
consistent with due process of law should begin with
the familiar “minimum contacts” rule articulated by the
United States Supreme Court in International Shoe Co.
v. Washington:
Due process requires only that in order to
subject a defendant to a judgment in personam,
if he be not present within the territory ofthe
forum, he [has] certain minimum contacts with
it such that the maintenance of the suit does
not offend “traditional notions of fair play and
substantial justice.”
326 U.S. 310, 316 (1945) (quoting Milliken v. Meyer, 311
U.S. 457, 463 (1940)). The Supreme Court, in Hanson v.
Denckla, went on to explain that the necessary minimum
contact with the forum state is “some act by which the
defendant purposefully avails itself of the privilege of
conducting activities within the forum State, thus invoking
the benefits and protections of its laws.” 357 U.S. 235, 253
(1958).

16a
Appendix B
The Supreme Court elaborated on the notion of
“purposeful availment” in Burger King v. Rudzewicz:
This purposeful availment requirement
ensures that a defendant will not be haled into
a jurisdiction solel y as a result of random .. .
contacts, or of the unilateral activity of another
party or a third person. Jurisdiction is proper,
however, where the contacts proximately result
from actions by the defendant himse(fthat
create a substantial connection with the forum
State. Thus, where the defendant deliberately
has engaged in significant activities within a
State, or has created continuing obligations
between himself and the residents of the
forum, he manifestly has availed himself of
the privilege of conducting business there,
and because his activities are shielded by the
benefits and protections of the forum’s laws it
is presumptively not unreasonable to require
him to submit to the burden of litigation in that
forum as well.
471 U.S. 462, 475-76 (1985) (citations and internal quotation
marks omitted). In addition to the concept of purposeful
availment, “[t]he minimum contact requirement contains
the notion of foreseeability.” Deluxe Ice Cream, 726
F.2d at 1213 n.4 (citing World-Wide Volkswagen Corp.
v. Woodson, 444 U.S. 286, 297 (1980)). When a corporate
defendant conducts activities within the forum state
sufficient to establish minimum contacts, “it has clear
notice that it is subject to suit there.” Volkswagen, 444
U.S. at 297.

17a
Appendix B
Here, it is clear that Defendant is subject to this
Court’s personal jurisdiction and that Plaintiff, through
both the allegations in the complaint and the Joyce
Declaration, has met its burden in this respect. First,
Defendant cannot dispute that its alleged promise to
allow Plaintiff to bill it directly was related to work that
Plaintiff would be carrying out in Illinois in November
2017. Moreover, through the Joyce Declaration, Plaintiff
has attested that Defendant was consistently involved
with the strategic planning and direction of the work that
Plaintiff was performing in Illinois, and that Defendant
regularly sent executives, representatives, and other
employees to Chicago or the Chicagoland area to take
part in work directly related to the trade show. These
actions are directly related to the dispute at issue and
confer specific personal jurisdiction on this Court over
Defendant.
The exercise of personal jurisdiction in this case
comports with due process as these facts illustrate that
Defendant has purposely availed itself of the privilege
of conducting business in this state—namely displaying
its technology at McCormick Place. Because the nature
of the actions that led to the underlying dispute—that
is, the actual labor—took place in Chicago, and the fact
that Defendant was involved with strategic meetings and
planning in Chicago involving Plaintiff, the exercise of
personal jurisdiction is clearly proper and reasonable.
D. Judicial Estoppel
Defendant next argues that this Court should apply
the equitable principle of judicial estoppel to bar Plaintiff

18a
Appendix B
from recovering money that, Defendant argues, Plaintiff
has previously asserted was owed by Lynch in another
court proceeding. Specifically, Defendant points to
Plaintiffs Involuntary Bankruptcy Petition and argues
that Plaintiffs statements in that pleading should preclude
it from now claiming that Defendant owes it the exact same
amount of money—down to the penny—that it previously
claimed was owed by Lynch.
Judicial estoppel provides that a party who prevails
on one ground in a prior proceeding cannot tum around
and deny that ground in a subsequent one. Ogden Martin
Sys. Of lndianapolis, Inc. v. Whiting Corp., 179 F.3d 523,
526 (7th Cir.1999). New Hampshire v. Maine, 532 U.S. 742,
750-51 (2001) explains:
Courts have observed that “[t]he circumstances
under which judicial estoppel may appropriately
be invoked are probably not reducible to
any general formulation of principle[.]” ...
Nevertheless, several factors typically inform
the decision whether to apply the doctrine in a
particular case: First, a party’s later position
must be “clearly inconsistent” with its earlier
position.... Second, courts regularly inquire
whether the party has succeeded in persuading
a court to accept that party’s earlier position,
so that judicial acceptance of an inconsistent
position in a later proceeding would create “the
perception that either the first or the second
court was misled[.]” . . . Absent success in a
prior proceeding, a party’s later inconsistent

19a
Appendix B
position introduces no “risk of inconsistent
court determinations,” . . . . and thus poses
little threat to judicial integrity. . . . A third
consideration is whether the party seeking to
assert an inconsistent position would derive an
unfair advantage or impose an unfair detriment
on the opposing party if not estopped.
As to the first factor—whether Plaintiff is taking a
position in this Court that is “clearly inconsistent”
with an earlier position—it is necessary to closely
review Plaintiff’s Involuntary Bankruptcy Petition. The
Involuntary Petition, which was signed and submitted
under penalty of perjury by an attorney for Plaintiff and
also a principal, Thomas McLaughlin, names Lynch as a
Debtor to Plaintiff in the amount of $529,830.09 for “[g]
oods delivered and/or services rendered[.]” Involuntary
Bankruptcy Petition, 3. With respect to that amount, the
petition contains the following allegation (which is one of
two choices allowed on the form): “The debtor is generally
not paying its debts as they become due, unless they are
the subject of a bona fide dispute as to liability or amount.”
Id. at 2. Defendant argues that by selecting this option,
Plaintiff was asserting that Lynch owed it $529,830.09
and attesting that there was no dispute that Lynch owed
it this money. The Court agrees. Case law suggests that
a bona fide dispute exists in the context of an involuntary
bankruptcy petition where there is a material issue of
fact about whether the supposed debtor actually owes the
amount claimed on the petition. See Matter of Busick, 831
F.2d 745, 750 (7th Cir. 1987); In re Regional Anesthesia
Associates PC, 360 B.R. 466 (Bankr. W.D. Pa. 2007). By

20a
Appendix B
attesting that no bona fide dispute existed as to Lynch’s
liability to Plaintiff or as to the amount that Lynch owed,
Plaintiff took the position there was no material factual
question about what company owed it the $529,830.09.
In the present case, however, Plaintiff now attempts
to claim that it is in fact Defendant TRUMPF that owes
it the $529,830.09. This is clearly inconsistent with its
position in the bankruptcy petition. Plaintiff argues that
the Involuntary Bankruptcy Petition does not attest that
Lynch was solely responsible for the debt, and Plaintiff
claims it has consistently maintained the position that
either Lynch or TRUMPF owes it the $529,830.09. This
claim is belied by the plain language of the Involuntary
Bankruptcy Petition and the case law delineating the
standard for determining whether a “bona fide dispute”
exists as to liability or amount. By certifying that
there was no dispute that Lynch owed the money in the
bankruptcy proceeding, Plaintiff foreclosed its ability to
argue that in fact another party actually owed that money.
Moreover, the primary case cited by Plaintiff in
its attempt to circumvent judicial estoppel is inapt. In
Traeger v. Am. Express Bank FSB, 2014 WL 340421,
at* 10 (N.D. Ill. Jan. 30, 2014), the party against
whom estoppel was sought, in the earlier state court
proceeding, maintained the same position—i.e. that both
an individual and a corporation were both liable—as it
did in the later suit. Here, on the other hand, there is no
indication in the Involuntary Bankruptcy Petition that
Plaintiff actually took the position that Defendant was
liable for the $529,830.09. In reality, as discussed above,
Plaintiff, through counsel and a principal, attested that

21a
Appendix B
there was no dispute (1) that Lynch was liable for the
debt and (2) that the amount it was liable for was not in
dispute—­$ 529,830.09.
Per New Hampshire v. Maine, the second factor
for the Court to consider, and a requirement identified
by the Seventh Circuit, is whether the litigant against
whom estoppel is sought succeeded in convincing the
earlier court to accept its position. Matter of Cassidy, 892
F.2d 637, 641 (7th Cir. 1990). Although the involuntary
bankruptcy was eventually subsumed into the voluntary
proceeding (which is still pending according to Plaintiff’s
briefing), a party need not ultimately prevail in the earlier
case for judicial estoppel to apply. Id. (“party need not
finally prevail to be estopped from changing a successful
position on a preliminary matter”) (citing Edwards v.
Aetna Life Ins. Co., 690 F.2d 595, 599 n. 5 (6th Cir.1982).
In the involuntary bankruptcy, Plaintiff persuaded
the court to enter an order placing Lynch into involuntary
Chapter 7 bankruptcy, which the court noted it did after
“consideration” of the Involuntary Bankruptcy Petition.
Involuntary Bankruptcy Order, 1-2. To put it simply,
Plaintiff made representations to that court about what it
was owed and, based on the debt, requested that the court
place Lynch into bankruptcy. The court granted that relief
as sought, thus implicitly crediting Plaintiff’s arguments.
This Court is satisfied that this constitutes a success by
Plaintiff in persuading the bankruptcy court to adopt its
position and thus finds this requirement satisfied.
Finally, Plaintiff would unduly benefit from being
permitted to change its position at this juncture, as

22a
Appendix B
it would be effectively getting two bites at the apple
in attempting to collect the money it previously has
unequivocally stated under oath is owed to it by Lynch.
To the extent that Plaintiff can collect in the bankruptcy,
particularly if it is successful in advancing the theory that
money Defendant paid to Lynch should be considered as
having been held in trust (rather than as Lynch’s direct
property to be distributed amongst creditors), this Court
would potentially be in the position of awarding Plaintiff
a windfall if it were to succeed on its claims here. As
such, the Court applies the equitable principle of judicial
estoppel to bar Plaintiff from advancing a position which is
clearly inconsistent with that which it succeeded in having
adopted in the bankruptcy court.
III. CONCLUSION
For the aforementioned reasons, Defendant’s motion
to dismiss is granted and this case is dismissed.
IT IS SO ORDERED.
Enter:
s/				
CHARLES RONALD
NORGLE, Judge
United States District Court
DATE: May 28, 2019

23a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604,
FILED JANUARY 10, 2020
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT CHICAGO, ILLINOIS 60604
No. 19-2189
CSI WORLDWIDE, LLC,
Plaintiff-Appellant,
v.
TRUMPF INC.,
Defendant-Appellee.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 2018 CV 05900
Charles R. Norgle, Judge.
January 10, 2020
Before
Frank H. Easterbrook, Circuit Judge
Ilana Diamond Rovner, Circuit Judge
Michael Y. Scudder, Circuit Judge

24a
Appendix C
ORDER
Defendant-Appellee filed a petition for rehearing and
rehearing en banc on December 26, 2019. No judge in
regular active service has requested a vote on the petition
for rehearing en banc, and all of the judges on the panel
have voted to deny rehearing. The petition for rehearing
is therefore DENIED.

25a
D
APPENDIX D —Appendix
1938 BANKRUPTCY
ACT,
CHAPTER 575
***
[CHAPTER 575]
AN ACT
To amend an Act entitled “An Act to establish a uniform
system of bankruptcy throughout the United States”,
approved July 1, 1898, and Acts amendatory thereof and
supplementary thereto; and to repeal section 76 thereof
and all Acts and parts of Acts inconsistent therewith.
Be i t e n a c t ed b y th e Se n a t e an d Ho u se of
Representatives of the United States of America in
Congress assembled, That sections 1 to 11, inclusive; 14;
15; 17 to 29, inclusive; 31; 32; 34; 35; 37 to 42, inclusive; 44
to 53, inclusive; and 55 to 72, inclusive, of an Act entitled
“An Act to establish a uniform system of bankruptcy
throughout the United States”, approved July 1, 1898, as
amended, are hereby amended; and sections 12, 13, 73, 74,
77A, and 77B are hereby amended and incorporated as
chapters X, XI, XII, XIII, and XIV; said amended sections
to read as follows:
***
“CHAPTER I—DEFINITIONS
“Section 1. Meaning of Words and Phrases.—The
words and phrases used in this Act and in proceedings
pursuant hereto shall, unless the same be inconsistent
with the context, be construed as follows:

26a
Appendix D
***
“(2) ‘Adjudication’ shall mean a decree that a person
is a bankrupt;
***
“(4) ‘Bankrupt’ shall include a person against. whom
an involuntary petition or an application to revoke a
discharge has been filed, or who has filed a voluntary
petition, or who has been adjudged a bankrupt;
***
“Sec. 59. Who M ay File and Dismiss Petitions.—a.
Any qualified person may file a petition to be adjudged a
voluntary bankrupt.
“b. Three or more creditors who have provable claims
fixed as to liability and liquidated as to amount against
any person which amount in the aggregate in excess of the
value of securities held by them, if any, to $500 or over; or
if all of the creditors of such person are less than twelve
in number, then one of such creditors whose claim equals
such amount may file a petition to have him adjudged a
bankrupt.
“c. Petitions shall be filed in triplicate, one copy for
the clerk, one for service on the bankrupt, and one for
the referee.

27a
Appendix D
“d. If it be averred in the petition that the creditors
of the bankrupt, computed as provided in subdivision e of
this section, are less than twelve in number, and less than
three creditors have joined as petitioners therein, and the
answer avers the existence of a larger number of creditors,
there shall be filed with the answer a list under oath of all
the creditors, with their addresses and a brief statement
****

28a
E
Appendix EAppendix
— EXCERPTS
OF 1978
Bankruptcy AcT
Public Law 95-598
95th Congress
An Act
To establish a uniform Law on the
Subject of Bankruptcies.
Be it enacted by the Senate and House of representative
of the United States of America in Congress assembled,
TITLE I—ENACTMENT OF TITLE 11
OF THE UNITED STATES CODE
Sec. 101. The law re1ating to bankruptcy is codified
and enacted as title 11 of the United States Code, entitled
“Bankruptcy,” and may be cited as 11 U.S.C. § , as follows:
***
§ 101. Definitions
In this title—
***
(4) “claim” means—
(A) right to payment, whether or not such right
is reduced to judgment, liquidated, unliquidated,

29a
Appendix E
fixed, contingent, matured, unmatured, disputed,
undisputed, legal, equitable, secured, or unsecured; or
(B) right to an equitable remedy for breach of
performance if such breach gives rise to a right to
payment, whether or not such right to an equitable
remedy is reduced to judgment, fixed, contingent,
matured, unmatured, disputed, undisputed, secured,
or unsecured;
***
11 USCS § 303
§ 303. Involuntary cases
(a) An involuntary case may be commenced only under
chapter 7 or 11 of this title, and only against a person,
except a farmer, or a corporation that is not a moneyed,
business, or commercial corporation, that may be a debtor
under the chapter under which such case is commenced.
(b) An involuntary case is commenced by the filing
with the bankruptcy court of a petition under chapter 7
or 11 of this title—
(1) by three or more entities, each of which is
either a holder of a claim against such person that is
not contingent as to liability or an indenture trustee
representing such a holder, if such claims aggregate at
least $5,000 more than the value of any lien on property
of the debtor securing such claims held by the holders
of such claims;

30a
Appendix E
(2) if there are fewer than 12 such holders,
excluding any employee or insider of such person and
any transferee of a transfer that is voidable under
section 544, 545, 547, 548, 549, or 724(a) of this title, by
one or more of such holders that hold in the aggregate
at least $5,000 of such claims;
(3) if such person is a partnership—
(A) by fewer than all of the general partners
in such partnership; or
(B) if relief has been ordered under this title
with respect to all of the general partners in
such partnership, by a general partner in such
partnership, the trustee of such a general partner,
or a holder of a claim against such partnership; or
(4) by a foreign representative of the estate in a
foreign proceeding concerning such person.
(c) After the filing of a petition under this section
but before the case is dismissed or relief is ordered, a
creditor holding an unsecured claim that is not contingent,
other than a creditor filing under subsection (b) of this
section, may join in the petition with the same effect as
if such joining creditor were a petitioning creditor under
subsection (b) of this section.
(d) The debtor, or a general partner in a partnership
debtor that did not join in the petition, may file an answer
to a petition under this section.

31a
Appendix E
(e) After notice and a hearing, and for cause, the court
may require the petitioners under this section to file a
bond to indemnify the debtor for such amounts as the
court may later allow under subsection (i) of this section.
(f) Notwithstanding section 363 of this title, except to
the extent that the court orders otherwise, and until an
order for relief in the case, any business of the debtor may
continue to operate, and the debtor may continue to use,
acquire, or dispose of property as if an involuntary case
concerning the debtor had not been commenced.
(g) At any time after the commencement of an
involuntary case under chapter 7 of this title but before
an order for relief in the case, the court, on request of a
party in interest, after notice to the debtor and a hearing,
and if necessary to preserve the property of the estate
or to prevent loss to the estate, may appoint an interim
trustee under section 701 of this title to take possession
of the property of the estate and to operate any business
of the debtor. Before an order for relief, the debtor may
regain possession of property in the possession of a trustee
ordered appointed under this subsection if the debtor
files such bond as the court requires, conditioned on the
debtor’s accounting for
****

32a
Appendix
F OF PUBLIC
APPENDIX F —
EXCERPT
LAW 98-353
PUBLIC LAW 98-353—JULY 10, 1984
Public Law 98-353
98th Congress
An Act
To amend title 28 of the United States Code regarding
jurisdiction of bankruptcy proceedings, to establish new
Federal judicial positions, to amend title 11 of the United
States Code, and for other purposes.
Be i t e n a c t ed b y th e Se n a t e an d Ho u se of
Representatives of the United States of America in
Congress assembled, That this Act may be cited as the
“Bankruptcy Amendments and Federal Judgeship Act
of 1984”.
TITLE I—BANKRUPTCY JURISDICTION
AND PROCEDURE
Sec. 101. (a) Section 1334 of title 28, United States
Code, is amended to read as follows:
“§ 1334. Bankruptcy cases and proceedings
***
Sec. 426. (a) Section 303(b) of title 11 of the United
States Code is amended by inserting “against a person”
after “involuntary case”.

33a
Appendix F
(b) Section 303 of title 11 of the United States Code,
is amended—
(1) in subsection (b)(l) by inserting “or the
subject on a bona fide dispute,” after “liability”;
and
(2) in subsection (h)(1) by inserting “unless
such debts that are the subject of a bona fide
dispute” after “due”.
Sec. 427. Section 303(j)(2) of title 11 of the United
States Code is amended by striking out “debtors” and
inserting in lieu thereof “debtor”.
****

34a
Appendix
G
APPENDIX G —
EXCERPTS
OF PUBLIC
LAW 109-8

PUBLIC LAW 109–8—APR. 20, 2005
Public Law 109–8
109th Congress
An Act
To amend title 11 of the United States Code, and for
other purposes.
Be i t e n a c t ed b y th e Se n a t e an d Ho u se of
Representatives of the United States of America in
Congress assembled,
***
SEC. 1234. INVOLUNTARY CASES.
(a) A mendments .—Section 303 of title 11, United
States Code, is amended—
(1) in subsection (b)(1), by—
(A) inserting ‘‘as to liability or amount’’
after ‘‘bona fide dispute’’; and
(B) striking ‘‘if such claims’’ and
inserting ‘‘if such noncontingent, undisputed
claims’’; and

35a
Appendix G
(2) in subsection (h)(1), by inserting ‘‘as to
liability or amount’’ before the semicolon at
the end.
(b) Effective Date; A pplication of A mendments.—
This section and the amendments made by this section
shall take effect on the date of the enactment of this Act
and shall apply with respect to cases commenced under
title 11 of the United States Code before, on, and after
such date.
****

36a
H OF 11 U.S.C.A.
APPENDIX H —Appendix
EXCERPTS
§ 303 INVOLUNTARY CASES
11 U.S.C.A. § 303.
INVOLUNTARY CASES
EFFECTIVE: DECEMBER 22, 2010
***
(b) An involuntary case against a person is commenced
by the filing with the bankruptcy court of a petition under
chapter 7 or 11 of this title-(1) by three or more entities, each of which
is either a holder of a claim against such person
that is not contingent as to liability or the
subject of a bona fide dispute as to liability or
amount, or an indenture trustee representing
such a holder, if such noncontingent, undisputed
claims aggregate at least $10,0001 more than
the value of any lien on property of the debtor
securing such claims held by the holders of
such claims;
(2) if there are fewer than 12 such holders,
excluding any employee or insider of such
person and any transferee of a transfer that
is voidable under section 544, 545, 547, 548,
549, or 724(a) of this title, by one or more of
such holders that hold in the aggregate at least
$10,0001 of such claims;
1. See Adjustment of Dollar Amounts notes set out under this
section and 11 U.S.C.A. § 104. 11 U.S.C.A. § 303, 11 USCA § 303
Current through P.L. 116-140.

37a
Appendix H
(3) if such person is a partnership-(A) by fewer than all of the general
partners in such partnership; or
(B) if relief has been ordered under
this title with respect to all of the general
partners in such partnership, by a general
partner in such partnership, the trustee
of such a general partner, or a holder of a
claim against such partnership; or
(4) by a foreign representative of the estate
in a foreign proceeding concerning such person.
***
(h) If the petition is not timely controverted, the court
shall order relief against the debtor in an involuntary
case under the chapter under which the petition was filed.
Otherwise, after trial, the court shall order relief against
the debtor in an involuntary case under the chapter under
which the petition was filed, only if-(1) the debtor is generally not paying such
debtor’s debts as such debts become due unless
such debts are the subject of a bona fide dispute
as to liability or amount; or
(2) within 120 days before the date of
the filing of the petition, a custodian, other
than a trustee, receiver, or agent appointed

38a
Appendix H
or authorized to take charge of less than
substantially all of the property of the debtor
for the purpose of enforcing a lien against such
property, was appointed or took possession.
****

